HHS/OIG-Audit--"Review of Employees Health Care Fringe Benefit Costs
Reported Under Medicare by the Former Humana Hospital San Antonio, (A-06-93-00094)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Employees Health Care Fringe Benefit Costs Reported Under Medicare
by the Former Humana Hospital San Antonio," (A-06-93-00094)
November 8, 1994
Complete
Text of Report is available in PDF format (2.32 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Humana, Inc. corporate headquarters had
improperly reported to the Medicare program a portion of the employee health care
fringe benefit costs for all of its hospitals for the 3 fiscal years ended August
31, 1990. A fiscal intermediary for Humana, Inc. (AdminaStar) working with other
Medicare FIs having responsibility for the approximately 80 Humana hospitals identified
overcharges totaling about $92.9 million for employee benefits/group health insurance.
AdminaStar also found that patient charges for this same period were overstated
by approximately $90 million. The FIs are adjusting individual hospital's cost
reports. We are recommending that the Health Care Financing Administration (HCFA)
monitor the resolution of these adjustments to ensure that appropriate recoveries
are made. We are also recommending that HCFA reemphasize the need for all FIs to
carefully review whether hospitals or hospital chains are properly reporting employee
health care benefit costs in situations where the services are directly rendered
by the provider or a related organization. The HCFA concurred with our findings
and recommendations.